No.

m

IN THE
a
SUPREME COURT OF THE UNITED STATES

JAMIL STEPON CARTER

— PETITIONER

(Your Name)

filed

vs.
O'BELL T. WINN. WARDEN

APR 0 7 2020
- RESPONDEyg§ijgS|£^

ON PETITION FOR A WRIT OF CERTIORARI TO

U.S. Gourt of Appeals for the Sixth Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
,/ v

PETITION FOR WRIT OF CERTIORARI

JAMIL STEFON CARTER

(Your Name)
9625 Pierce Road - MDOC

(Address)
Freeland, Michigan 48623

(City, State, Zip Code)

(Phone Number)

RECEIVED
APR I 4 2021
supreme"CQURTLUFc;K

QUESTION(S) PRESENTED
Ground Ona:
DUE PROCESS REQUIRES PLEA WITHDRAWAL WHERE PETITIONER DID NOT KNOW HIS GUILTY
PLEA WAIVED HIS RIGHT TO APPEAL THE DENIAL OF THE PRE-TRIAL MOTION TO SUPPRESS
PETITIONER'S STATEMENT TO A DETECTIVE AND WHERE PETITIONER WAS FRIGHTENED
INTO PLEADING GULTY BY DEFENSE COUNSEL'S FAILURE TO ASK THE QUESTIONS
PETITIONER WANTED PUT TO THE POTENTIAL JURORS DURING SELECTION AND PETITIONER
FELT DEFENSE TRIAL COUNSEL HAD LOST INTEREST IN THE CASE. U.S. CONST. AMS
VT# XTV.
Ground Two:
DUE PROCESS REQUIRES PLEA WITHDRAWAL WHERE 'TRIAL COUNSEL'S FAILURE TO INFORM
'THE TRIAL COURT THAT PETITIONER HAD INFORMED COUNSEL THAT THE CONFESSION
HE MADE TO DETECTIVE JOHNELL WHITE WAS COMPLETELY FALSE.
TRIAL COUNSEL'S FAILURE TO INFORM PETITIONER OF LESSER RELATED OFFENSES IN
REGARDS TO THE ORIGINAL CHARGES.
•TRIAL COUNSEL'S FAILURE TO FOLLOW THROUGH WITH THE TRIAL COURT DECISION
FOLLOWING PETITIONER'S MOTION TO FIND OUT THE TRUE IDENTITY OF THE PROSECUTION
WITNESS LORENZO PETRIS.
TRIM, COUNSEL'S FAILURE TO INFORM PETITIONER THAT HIS GUILTY PLEA WOULD WAIVE
HIS BRIGHT TO APPEAL THE PRE-TRIAL MOTION TO A POLYGRAPH EXAM.
TRL COUNSEL'S USE OF COERCION WHERE PETITIONER EXPRESSED RELUCTANCE DURING
PLEA PROCEEDINGS.
ALL THE ABOVE SHOULD BE CONSTITUTE INEFFECTIVE ASSISTANCE OF COUNSEL. U.S.
CONST. AMS VI, XIV.

LIST OF PARTIES

[x>f All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A

Carter v. Winn, 2021 U.S. App. LEXIS 462

APPENDIX B

Carter v. Winn, 2021 U.S. App LEXIS

APPENDIX C

Carter v. Winn, U.S. Dist. LEXIS 154512

APPENDIX D

People v. Carter, 2018 Mich LEXIS 2325

APPENDIX E

People v. Carter,

APPENDIX F

People v. Carter, Case No. 15-4311-01-FC (MRJ Order)(3/29/18)

n

Mich App’

(Mich. App. 5/31/18)

TABLE OF AUTHORITIES CITED
CASES
Barnes v. Jones, 463 U.S. 745 (1983)................

PAGE NO.
11

15
Bouseley v. U.S.,, 532 U.S. 614 (1998)________
12
Boykin v. Alabama, 395 U.S. 238 (1969)........
............8, 17
Bcadshaw v. Stumpf, 125 S.Ct. 2398 (2005)..-..
15
Brady v. United States, 397 U.S. 742 (1970).—
14
Browning v. Baker, 871 F3d 842 (9th Cir. 2017)
,14
Cook v. Foster, 948 F3d 896 (7th Cir_ 2020)...
10
Faretta v. California, 422 U.S. 806 (1975).--.
.8, 12, 13, 14, 15
Hill v. Lockhart, 474 U.S. 52 (1985)----------- 18
Lockhart v. Fretwell, 506 U.S. 364 (1993).—.
Maples v. Comm'r Ala. Dep't of Oorr., 729 Fed. Appx. 817 (11th Cir. 2018)..16
11
Miller v. Straub, 229 F3d 570 (6th Cir- 2002).
17
Padilla v. Kentucky, 559 U.S. 356 (2010).———————
9
Rompilla v. Beard, 545 U.S. 375 (2005).————————

Smith v. O'Grady, 312 U.S. 329 (1941)...............................
Stewart v. Wolfenbarger, 468 F3d 338 (6th Cir. 2006).—
Strickland v. Washington, 466 U.S. 668 (1984).
Towns v. Smith, 395 F3d 251 (6th Cir. 2005).....................
United States v. Broca, 488 U.S. 563 (1989)............
United States v. DeGoster, 624 F2d 196 (D.C. Cir. 1976)

15, 17
9
9, 10, 15, 16
9
12
10
16

United States v. McMullen, 86 F3d 135 (8th Cir. 1996)..

11

Wainwright v. Sykes, 433 U.S. 72 (1977)................
People v. Warren, 2020 Mich. LEXIS 688........... ......... .

17, 18

STATUTES AND RULES

17

MCR 6.302(A).............

OTHER
ABA Standard for Criminal Justice 4-4.1 (2d ed. 1982 Supp.)

9

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

)££] For cases from federal courts:

.

to

The opinion of the United . States court of appeals appears at Appendix _A
the petition and is
[jq reported at 2021 u.s. App. lexis 462
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

£

; or,
P ] reported at 2018 U.S. Dist. KEXIS 197059
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
g ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix __5__ to the petition and is
[ ^ reported at 920 NW2d 117 (Mich.2018) (mam.).
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
court
The opinion of the Michigan Court of Appeals
to the petition and is
appears at Appendix _el
g ] reported at People v. Carter,
MICH app No. 34338'9 ; or,
[ ] has been designated for publication but is not yet reported; or,
£ ] is unpublished.
1.

to

JURISDICTION

[x] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was Jan 07, 2021
[ ] No petition for rehearing was timely filed in my case.
[X] A timely petition for rehearing was denied by the United States Court of
and a copy of the
Appeals on the following date: Mar 01, 2021
order denying rehearing appears at Appendix _A
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) on--------------------------- 1 (date)
to and including______
in Application No. —A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

. k ] For cases from state courts:
The date on which the highest state court decided my case was 2018 Mich LEXIS 2325
A copy of that decision appears at Appendix _d-------[ ] A timely petition for rehearing was thereafter denied on the following date:
_____________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)in
(date) on
to and including-----Application No. —A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
AMENDMENT V

No parson shall be compelled in any criminal case to be a witness against
himself, nor be deprived of life,, liberty, or property, without due process
of law._.
AMENDMENT VI

In all criminal prosecutions„ the accused shall anjov the right to have the
assistance of counsel for his defence.
AMENDMENT XIV
Sec. 1. All persons born or naturalized in the United States and subject
to the jurisdiction thereof, are citizens of the United States and of the
State wherein they reside. No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or property> without
due process of law: nor deny to any person within its jurisdiction the equal
protection of the laws.

SffiSEMENT CF THE CASE
---- —Pet-i-t-i-onec J-afrii 1 Dto fon- Ca-r-t-e-r plod guilt-y—&€>^s-econd dag-&ee.
murder and felony firearm (second offense). The Wayne County Circuit Court
sentenced him to 19 to 60 years for the murder charge and a consecutive 5
years for the weapons violation.

Following the conviction and sentence, a delayed application for leave
to appeal was filed with the Michigan Court of Appeals- The following claim
was raised by appellate counsel:
ISSUE I:
DOES DUE PROCESS REQUIRE [SIC] PLEA WITHDRAWAL WHERE APPELLANT DID NOT KNOW
HIS GUILTY PLEA WAIVED HIS RIGHT TO APPEAL THE DENIAL OF THE PRE-TRIAL MOTION
TO SUPPRESS APPELLANT'S STATEMENT TO A DETECTIVE; AND WHERE APPELLANT WAS
FRIGHTENED INTO PLEADING GUILTY BY DEFENSE TRIAL COUNSEL'S FAILURE TO ASK
THE QUESTIONS APPELLANT WANTED PUT TO THE POTENTIAL JURORS CORING SELECTION,
AND APPELLANT FELT DEFENSE COUNSEL HAD LOST INTEREST IN THE CASE?
Petitioner thereafter filed a pro se brief, known in Michigan as a Standard
4 brief, which raised:
ISSUE II - STD. 4:
DOE DUE PROCESS REQUIRE PLEA WITHDRAWALA WHERE TRIAL COUNSEL'S FAILURE TO
INFORM THE TRIAL COURT THAT THE DEFENDANT-APPELLANT HAD INFORM [SIC] COUNSEL
THAT THE CONFESSION HE MADE TO DETECTIVE JOHNELL WHITE WAS COMPLETELY FALSE;
TRIAL COUNSEL'S FAILURE TO INFORM DEFENDANT-APPELLANT OF LESSER RELATED
OFFENSES IN REGARD [SIC] TO THE ORIGINAL CHARGES; TRIAL COUNSEL'S FAILURE
TO FOLLOW THROUGH WITH THE TRIAL COURT DECISION FOLLOWING DEFENDANT MOTION
TO FIND CUT THE TRUE IDENTITY OF THE PROSECUTION WITNESS LORENZO PETTUS;
TRIAL COUNSEL'S FAILURE TO INFORM DEFENDANT-APPELLANT THAT HIS GUILTY PLEA
WOULD WAIVE HIS RIGHT TO APPEAL THE DENIAL OF THE PRE-TRIAL MOTION TO A POLY­
GRAPH EXAM; TRIAL COUNSEL'S USE OF COERCION WHERE DEFENDANT-APPELLANT EXPRESSED
RELUCTANCE DURING THE PLEA PROCEEDING. ALL THE ABOVE SHOULD CONSTITUTE
INEFFECTIVE ASSISTANCE OF COUNSEL.
On September 6, 2016, the Michigan Court of Appeals denied this delayed
application for leave to appeal "for lack of meritTin the grounds presented."
(9/6/16 Mich. Ct. App. Order).

1.

Petitioner thereafter filed an application for leave to appeal with the
Michigan Supreme Court, raising the same claims as in the Court of Appeals
and a new claim of:

NEW GROUND - MISCT:
INEFFECTIVE ASSISTANCE OF COUNSEL, SUBSTITUTE APPELLATE COUNSEL REFUSED TO
SUBMIT A NEW BRIEF AFTER DEFENDANT ASKED COUNSEL TO DO SO AFTER THE LAST
APPELLATE COUNSEL WITHDRAWAL.
The Michigan Supreme Court denied this application because it was not
persuaded that the questions presented should be reviewed by the Court. People
v. Carter, 891 NW2d 491 (Mich. 2017)(Unpublished table decision).

Petitioner thereafter filed a Motion for Relief from Judgment in the Wayne
County Circuit Court, which raised the following claims:

ISSUE I - MRJ:
DOES DUE PROCESS REQUIRE RELIEF FROM JUDOIENT WHERE A DEFENDANT MAKES A CLAIM
OF ACTUAL INNOCENCE AND INTENDS TO SUPPORT THIS CLAIM BY THE RECORD, WHICH
CONSTITUTES A POTENTIAL BASIS FOR WITHDRAWAL OF A GUILTY PLEA.. THIS DEFENDANT
ALSO INTENDS TO PRESENT COMPELLING EVIDENCE OF ACTUAL INNOCENCE TO THE
SPECIFIC CHARGES THAT THE DEFENDANT PLEAD [SIC] GUILTY TO.
ISSUE II - MRJ:
DOES DUE PROCESS REQUIRE RELIEF FROM JUDGMENT WHERE TRIAL COUNSEL DISPLAYED
INEFFECTIVE ASSISTANCE FROM A COLLECTION OF ACTIONS WHICH WERE: (A) FAILURE
TO NOTIFY THE TRIAL COURT OF THE FALSE CONFESSION THAT DEFENDANT MADE TO
A POLICE DETECTIVE; (B) FAILURE TO SHOW THE DEFENDANT THE VIDEO OF THE INTER­
ROGATION WHERE THE DEFENDANT MADE THE FALSE STATEMENT/CONFESSION; (C) FAILURE
TO INVESTIGATE THE OVERALL FACTS OF THE DEFENDANT'S CASE, WHICH LEAD [SIC]
TO THE DEFENDANT NOT HAVING ANY POSSIBLE DEFENSE STRATEGIES; (D) FAILURE
TO FILE A MOTION FOR AN EXPERT WITNESS, WHICH WOULD HAVE HELP [SIC] TO EXPLAIN
THE REASONS WHY INDIVIDUALS GIVE FALSE CONFESSIONS; (E) FAILURE TO INTERVIEW
ANY POTENTIAL WITNESSES THAT THE DEFENDANT REQUESTED, WHICH SABOTAGE [SIC]
THE DEFENDANT'S [SIC] CHANNCES TO EXPLAIN HIS SIDE OF THE ORDEAL AT A TRIAL;
(F) FAILURE TO INFORM THE DEFENDANT OF ANY LESSER RELATED OFFENSES THAT A
POTENTIAL JURY WOULD HAVE BEEN INSTRUCTED ON, HAD THE DEFENDANT CHOSE TO
GONE AHEAD TO TRIAL; (G) TRIAL COUNSEL PERSUADED THE DEFENDANT TO PLEAD GUILTY

2.

ISSUE II - MRJ (OONT):
..

PRESENT.. AT TRIAL., [TJRIAL COUNSEL
RECEIVING A LIFE SENTENCE FRIGHTEN [SIC] DEFENDANT INTO PLEADING GUILTY TO
CHARGES THE DEFENDANT ISN'T GUILTY OF.
ISSUE III - MRJ:
DOES DUE PROCESS REQUIRE RELIEF FROM JUDGMENT DUE TO PROSECUTORIAL MISCONDUCT,
WHERE THE DEFENDANT WAS CHARGED WITH MURDER WHEN THE ELEMENTS FOR THAT
SPECIFIC CHARGES WEREN'T PRESENT AT ALL. IF PROSECUTION WOULD HAVE DONE A
PROPER INVESTIGATION OF THE FACTS OF THE CASE THE DEFENDANT WOULD HAVE BEEN
CHARGED WITH A LESSER RELATED OFFENSE.
ISSUE IV - MRJ:
DOES DUE PROCESS REQUIRE RELIEF FROM JUDGMENT DUE TO INEFFECTIVE ASSISTANCE,
WHERE SUBSTITUTE APPELLATE COUNSEL REFUSED TO SUBMIT A NEW BRIEF ON THE
DEFENDANT'S BEHALF. INSTEAD THE COUNSEL CHOSE TO ALLOW THE BRIEF THAT THE
PREVIOUS COUNSEL SUBMITTED TO STAND. SUBSTITUTE APPELLATE COUNSEL NEVER DONE
ANY WORK IN THIS CASE WHATESOEVER, WHICH THE RECORD WILL REFLECT.
On March 29, 2018, The Wayne County Circuit Court denied the motion for
relief from judgment under MCR 6.508(D)(3). (3/29/18 Wayne Cir Ct. Order
at 1-8).

Petitioner then appealed by leave to the Michigan Court of Appeals, which
was subsequently denied on May 31, 2018. (5/31/18 Mich. Ct. App. Order at

D.
Petitioner filed a timely application for leave to appeal to the Michigan
Supreme Court, which was subsequently denied under MCR 6.508(D). People v.
Carter, 920 NW2d 117 (Mich. 2018)(unpublished table decision).

Petitioner thereafter filed a Petition for Writ of Habeas Corpus 28 U.S.C.
§2254, in the United States District Court for the Eastern District of
Michigan - Carter v. Winn, Docket No. 2:19-cv-11041-AC-PTM, which raised
the same claims presented to the Michigan State Court.

3.

On August 26, 2020, U.S. District Judge Paul D. Borman, entered and Order
of Judgment and 18 page opinion denying Petitioner's petition for Writ of
Habeas Corpus, COA, and permission to appeal in forma pauperis.

(ECF No. 16)

Petitioner filed a timely notice of appeal, and Petition for permission
to appeal with'the United States Court of Appeals for the Sixth Circuit,
which was heard and denied on January 7, 2021, by Circuit Judge Stranch.
Carter v. Winn, Docket No. 20-1924 (6th Cir. Jan. 7, 2021).
Petitioner thereafter filed for rehearing an banc, which was subsequently
denied before: Circuit Judges Sutton, Cook, and Readier, Judge Larsen recused
herself from participation in this ruling. Carter v. Winn, Docket No. 201924 (6th Cir. Mar. 1, 2021).

Petitioner Jamil S. Carter, In Pro Per, now files this instant Petition
for Writ of Certiorari before this Honorable Court.

FACTS OF THE CASE

On May 27, 2015, Petitioner, Nakia Brim (decedent) live-in girlfriend lived
at 2692 Edsel Street, in the Southwest part of Detroit. Petitioner and Ms.
Brim had been visited by Petitioner's mother, who the day before had been
an over-night guest, and Lorenzo Pettus aka “ONE LOVE". (PE 5/29/15 at 2628).
Petitioner, Ms. Brim, Petitioner's mother and Pettus had all been drinking
during that period at the residence. (PE *27). Pettus testified that Ms.
Brim made a statement, "You're going to get your gun." The pushed Pettus
and walked out the home. (PE *30).
4.

This Court should take note that during the preliminary examination that
the Petitioner was represented by two court appointed counsels as follows:
Angela Paterson, Esq P59116, and Kristen Gura, Esq.,, P75375.

These counsels

along with the prosecution to reduce the number of witnesses presented at
the preliminary examination after the testimony of Petitioner's Great-Grand
mother,, Ms-Constance Brown. (PE *25).

Petitioner contends that the uncalled witness material to his case was
Petitioner's mother Ms- June Carter,, who had been present at the Carter home
the night before the shooting incident, during the purchase of the rifle,,
the attendance of Pettus,, and was on the scene attending the victim - Nakia
Brim. (PE pp. 27, 29, 33-34).

Per the pre-trial record during the suppression hearing Petitioner counsel
did not call a single witness to establish the extent of his intoxication
prior to the incidential shooting, which from the date of the incident he
contended was an accident. See PE Testimony of Ronald Massey at *15.

Ronald Massey testified that he heard Petitioner say, "I didn't mean to
do it. It was a mistake and they want to take me to jail." (*15).

Though,

this statement made as an excited utterance, should be held for its truthful
implications, no attorney for Carter undertook an investigation of this known
controversy of the actual events.

Massey further testified that Petitioner was upset, (18) and emotional_
(PE 19). Massey testified that he only heard two shots. (PE 10-11). He saw
a guy fast-tracking around the corner. (*11).

5.

On September 4, 2015, a Motion to Suppress his Statement for Involuntariness
was conducted. Petitioner was represented by appointed counsel - Timothy
Wrathar P70539.

The trial court denied this motion finding that his statement

was voluntarily provided in accord with Lego and Twomey, 404 U.S. 477 (1972).
(MT, pp. 50-52).

On September 16, 2015, the first day of Petitioner's trial and represented
by Wrathar and Mark Procida P39242, there was a disagreement with the voir
dire of the jury. Further, counsel had not been prepared to present witnesses
on his behalf, specifically, June Carter, his mother who would have testified
that Petitioner had created a false story to protect the victim's family
from the obvious truth that he was handling his newly acquired rifle, by
the prompting of Pettus, because he had purchased a rifle without testing
it first.

That Pettus and Petitioner had been fiddling with the weapon's

safety then discharged twice. That Pettus was not testifying truthfully since
he and Petitioner were responsible for the accidental shoot of Ms. Brim.
V

Pstitioner was advised by counsels to agree with the judge to obtain a
deal.

Petitioner had not been explained the elements of second degree murder

and the record of the plea is void of such explanation.

On appeal from his conviction via appellate counsel - Randy E. Davidson
P30207, of SADO did move to Withdraw Guity Plea. See Motion/Brief to Withdraw
Guilty Plea filed March 31, 2016.

6.

Petitioner on appeal was that his counsel was ineffective for failure to
relay to his information regarding a conditional plea to preserve his appeal
on the voluntariness of his confession.

Petitioner contends that the question by the court* does not elude to his
understanding of his rights surrendered of the adequacy of counsel legal
advice provided.

That under the Sixth Amendment counsel was inadequate under the prevailing
norms because the advise provided from counsel was unreasonable because it
was not based on the duty to investigate under the Strickland standard.

The applicable standard of review in this matter is Hill v. Lockhart, 474
U.S. 52, 59 (1985).

On review from the collateral proceeding Petitioner choose to focus his
argument of his ineffective of assistance of counsel claims under the Sixth
Amendment and on the last two reasoned opinions in the U«S. Court of Appeals
for the Sixth Circuit he stands by his due process claims premised on the
validity of his guilty plea under Brady and Boykin as cited by the Sixth
Ciruit Gourt and the ineffective assistance of counsel claims.

Petitioner now raises these claims before this Honorable Gourt on Writ
of Certiorari.

7.

REASONS FOR GRANTING THE PETITION
Petitioner Carter was denied Due Process of Law by the inadequate legal
advice of his attorney which induced him to plead guilty. Whether the
Constitutional deprivation is charcterized a as a denial of Due Process of
Law because the plea of guilty was involuntary, or as inadequate assistance
of counsels which denied Petitioner Carter Due Process of Law (discussed
3, infra), the questions are closely related that the authorities discuss
tham together. Sea Hill v. Lockhart, 474 U.S. 52, 57-59 (1985) and Bradshaw
v. Stumpf,

125 S.Ct. 2398, 2405-2407 (2005)(any shortcoming of defendant's

plea bargain will cast doubt on validity of his plea only if they show either
that defendant made unfavorable plea on constitutionally defective advice
of counsel, or that he could not have understood terms of bargain he and
presecution agreed to).

In Hill, this Court found that, where defendant pleaded guilty to charges
of first degree murder and theft of property on counsel's advice, the
voluntariness of plea depended on whether advice was within range of pro­
fessional confidence demanded of attorneys.

A. DUE PROCESS REQUIRES PLEA WITHDRAWAL WHERE PETITIONER DID NOT KNOW HIS
GUILTY PLEA WAIVED HIS RIGHT TO APPEAL THE DENIAL OF THE PRE-TRIAL MOTION
TO SUPPRESS PETITIONER"S STATEMENT TO A DETECTIVE AND WHERE PETITIONER WAS
FRIGHTENED INTO PLEADING GUILTY BY DEFENSE COUNSEL'S FAILURE TO ASK' THE
QUESTIONS WANTED PUT TO THE POTENTIAL JURORS DURING THE SELECTION AND
PETITIONER FELT DEFENSE TRIAL COUNSEL HAD LOST INTEREST IN THE CASE.
Factually this case is straightforward. Petitioner Carter, a person not
trained in the law, and substandard public education, was charged with first
degree murder, weapons charge and AWIM, based on the testimony of a person
he contends was also a cause of the accidential shooting. Per the record,
Carter assarted that it was an accident and had bean witnessed expressing
such sentiments.
8.

Petiti°ner admitted to the investigating officer a false statement that
there had been a dispute between his and Pettus which caused him to obtain
the newly acquired rifle. The statements during the investigation and adduced
at by the testimony supports that no argument between Pettus and Petitioner
transpired. Pettus' statement concurs with his preliminary exam testimony.

Petitioner thereafter determined to admit and explain his actual version
of events but decidedly counsel filed a motion to suppress Carter's statement
on intoxication grounds. This reliance on a suppression motion was ill-chosen
iecause did not perform and adequate pre-trial/independent investigation
under the Strickland standard. Strickland v. Washington, 466 U.S. 668, 690691 (1984).

Under Strickland, trial counsel has a duty to investigate his case. Sea
Stewart v. Wolfenbarger, 468 F3d 338, 356 (6th Cir. 2006). "This duty includes
the obligation to investigate all witnessed who may have information con­
cerning his or her client's guilt or innocence." Id. (quoting Towns v. Smith,
395 F3d 251, 258 (6th Cir. 2005)).

This Court in Rompilla v. Beard, 545 U.S. 374 (2005), reversing the decision
of the United States Court of Appeal for Third Circuit on ineffective
assistance of counsel grounds citing the ABA standards for Criminal Justice:
"It is the duty of the lawyer to conduct a prompt investigation of the
circumstances of the case and to explore all avenues leading to facts relevant
to the merits of the case and the penalty in the event of conviction. The
investigation should always include efforts to secure information in the
possession of the prosecution and law enforcement authorities. The duty to
investigate exist regardless of the accused's stated desire to plead guilty."
A ABA Standard for Criminal Justice 4-4.1 (2d ad. 1982 Supp). Id. 545 U.S.
at 387.

9^

It io well established that a defendant's Sixth amendment rights are his
alone,, and that trial counsel* while held to a standard of "reasonable
effect!veness*

is still only an assistant to the defendant and not the master

of the defense. See Faretta v. California,, 422 U.S. 806, 820 11975) - Our
criminal system allows a defendant the choice of whether he wants to be
represented by counsel at trial. See generally Faretta. Thus* it is recognized
that a defendant must have this broad power to dictate the manner in which
he is tried, it follows that* in evaluating strategic choices of trial counsel
a reviewing court must give great deference to choices which are made under
the explicit direction of the client. This Court in Strickland said:

influenced
S?°51 3 action may be determined or substantially
areufnaflvbL^
fc 3
stacemant °£ actions. Counsel's actions
Quite properly, on informed strategic choice made by the
on information supplied by the defendant. In paricular* what
investigation decisions are reasonable depends critically on such information.
are qeneralfvWknSw^hfr,f^CtS
5Uppor^ a, cerfcain potential line defense
need9f2f fnr^hS^ ^[rs?r?2U^13el beau£a of wnat the defendant has said, the
altoqecher And whsn S ^Ifs^n T't
considerably diminished or elimintated
ducsS c?r£?n
^ fc nasgiven counsel reason to believe that
^ailure9to our^na tho-s ?n5i°?3 w?uld ba flfruitless or even harmful* counsel's
unreasonable Tn-hr^?? investigations may not later be challenged as
rnv ba
hnh2
Y into Sou55el s conversations with defendant
^f.bf,cfifc1^a-LK^0 a.Proper assessment of counsel's investigation decisions.
aatiorwi^H
^°ca Proper assessment of counsel's other litigation decisions. See United Staresv. Decoster, 624 F.2d [196], at 209-210
466 U.S.

, 104 S.Ct. at 2066-67, 80 L.Ed. 2d at 695-96.

This is not

to say that an attorney has no professional independence to act without the
explicit permission of his client. Rather* if he is commanded by his client
to present a certain defense* and if he does thoroughly explain the potential
problems with the suggested approach, then his ultimate decision to follow
the client's will may not be lightly disturbed.

The claim of a disagreement of potential question during the voir dire
process and how it was handled supports* no such explanation, why Petitioner's
decision was not followed, as directed. Thus, review is required.
10.

Petitioner contends that his claim of plea withdrawal was based on the
amount of information which was not provided by counsel so he could make
an informed decision to plea.. This point has repeatedly stressed by this
Court- See Barnes v. Jones, 463 IJ-S. 745, 751 (1983)("the accused has the
ultimate authority to make certain fundamental decisions regarding the case,,
as to whether to plead guilty, waive a jury, testify in his or her behalf,
or take an appeal"); Wainwright v. Sykes, 433 U-S. 72, 93 n.1 (1977) (Burger,,
C.J • ff concurring)("only such basic decisions as whether to plead guilty,
waive a jury, or testify in one's own behalf are-ultimately for the accused
to make"). Thus,, the decision whether or not to plead guilty will ultimately
rest with the client, counsel must ensure that the client's decision is as
informed as possible. Failing even to consider,, let alone notify the client
of, a factor that could negate the entire benefit of the guilty plea is not
within the range of professional norms. See Miller v. Straub, 299 F3d 570,
580-81 (6th Cir. 2002).

The aggregate of counsel's inactions affected Petitioner decision-making
ability. Per Carter's affidavit submitted to the Michigan Supreme Court his
counsel s inaction was not based on one single claim, but multiple claims
or inaction, and/or deficient performance. See Carter's Affidavit in Support
of Motion for Remand for Evidentiary Hearing (October 23, 2018).

In fact, the legal advice transcend more than deficient performance, where
the information provide was patently incorrect. Petitioner in affidavit
cites (1) that counsel declined to investigate the name that Lorenzo Pettus
testified under when inform it was a false name, and that such a claim did
not make difference, (2) refusal to interview/investigate June Carter as
witness stating the family witness tend to lie and are not credible, (3)
when directed to run a LEIN on the name provided was Pettus actual name
counsel erred by running the testimonial name.
11.

The District Court reviewed Petitioner's claim starting with the fifth
habeas claim assert regarding voluntariness of the plea pursuant to UNited
States v. Broca,

483 UJS. 563, 569 0 989); Boykin v. Alabama, 395 U.S. 238

l1969)(ECF No. 15 at *10)
Under the reasoning articulated by the District Court citing Brady, "A
guilty plea is voluntary if it is not induced by threats, bribes, or mis­
representations, and the defendant is made aware of the likely consequences
of the plea. Brady v. United States, 397 U.S. 742, 755 (1970). The plea is
intelligent and knowing where there is nothing to indicate that the defendant
is incompetent or otherwise not in control of his or her mental faculties,
is aware of the nature of the charges, and is advised by competent counsel.
Id. at 756.

The catch-all to this is "and advised by competent counsel."

Here, the competence of counsel, was not recognized under the prevailing
standards of Strickland. See also Hill v. Lockhart, 474 U.S. 52 (1985). Here,
the claims were actual predicated on how Carter got all the way to the trial
proceeding, risk of trial on the highest charge and then tap out. The numerous
misrepresentation of the legal claim presented by Carter, erroneous answers
for counsel inaction, and willful disregard to consulting the client on legal
issues, contrary to the Strickland standard,

Thus, a case-by-case review

is appropriate.

The straw that broke the camel's back, was the question that was to be
posed the potential jurors. Namely, there can be no transferred intent to
harm Pettus, where Pettus alleged that ha was shot at after the decedent,
not before, and there was no malice towards Pettus after he was leaving.
Counsel refused to explain the difference to Garter, nor raise this question
in voir dire.
12.

Secondly, Petitioner decided to enter his trial with an admit and explain
defense, and explain away the version that he contends was false as expressed
to the detective, and that the shooting was an accident. During this exchange
lacked the zeal to go to trial as he stopped listening to the defense Carter
desired to present at his trial. This disagreement was evident by his shaking
of his head and not answering, the questions posed by Petitioner.

Per the record Petitioner had declined an plea offer previous to acceptance
and moved for withdrawal after advice by appellate counsel, upon consultation
that he was not advised on a conditional plea and the possibility to preserve
his constitutional claims for appellate review such as trial counsel's issues
deficient performance by attempting to promote the false statement to the
detective which was used against him.

Thus, the applicable test for the guilty plea was Hill, which applied the
Strickland standard to the guilty plea context, this Court explaining that
a defendant shows prejudice by demonstrating "a reasonable probability that,
but for counsel's errors, [the defendant] would not have pleaded guilty and
would have insisted on going to trial. Hill, 474 U.S. at 59.

This Court must look to the findings of the trial and Michigan Courts and
examine whether the court applied Hill and Strickland unreasonably. The last
reasoned opinion is found in the motion to withdraw the plea in the trial
court. See ECF No. 10-5, PgID 274-79.

This Court rnay look to the entire record and pleading which establish
that was constitutional void and should have been withdrawn.

13.

GROUND TWO:
DUE PROCESS OF LAW REQUIRES THAT COUNSEL BE EFFECTIVE DURING THE PRE-TRIAL
PERIOD AND DURING PLEA, WHERE PETITIONER WAS DENIED EFFECTIVE REPRESENTATION
UNDER STRICKLAND AND HILL'S BUT FOR CLAUSE, PETITIONER WOULD HAVE PROCEEDED
TO TRIAL.
In this matter before this Honorable Court Petitioner Carter contends that
the review of his claim under Hill v. Lockhart, 474 U.S. 52, 59 (1985), was
contrary to or an unreasonable application of Hill, using the Strickland
standard, where the State and Federal Courts did under take totality of cir­
cumstances approach.

In light of the variety of circumstances faced by defense counsel and the
range of legitimate decisions how 'best to represent a criminal defendant,
the performance inquiry necessarily turns on whether counsel's assistance
was reasonable considering all the circumstances- See Cook v. Foster, 948
F3d 896, 908-09 (7th Cir. 2020)(taken together, several instances of deficient
performance undenainded court's confidence in the trial result). See also
Browning v. Baker, 871 F3d 942, 969 (9th Cir. 2017)(district court improperly
broke up IAC claim into parts, unfairly limiting certificate of appealability)

Here, the obvious, is that the District Court and Court of Appeal each
elected to break the ineffective assistance of counsel claims into part,
which effectively denied Petitioner a CDA. Specifically overlooking counsel's
duty to investigate. Misstating the lav; regarding his compulsory right to
witnesses by informing Carter that June Carter,, would not be a viable witness
because family members lie for them. This is furthered by the failure to
list June Carter as a witness in any proceeding. June Carter was not called
for the suppression hearing, though, she was intoxicated a her son on the
day of the shooting and reportedly so, in the arresting agencies police report
by name.
14.

The predicate to Carter's claim for review is based on Strickland's duty
co invstigate. Strickland, 466 U.S. at 690-91.

Petitioner starting with (7) failing to investigate the facts of the case
todevelop any possible defenses as indicated in the Sixth Circuit's January
7, 2021 denial of GOA — Ineffective Assistance of Counsel at *4.

Petitioner

contends that only voluntary and intelligent guilty plea is constitutionally
valid. Brady v. Waited States, 397 U.S. 742, 748 (1970). A plea is not
intelligent unless a defendant first received real notice of the nature of
the charge against him.Smith v. O'Grady, 312 U.S. 329, 334 (1941).

Brady, holds an exception regarding the voluntariness argument,, explaining
that a "plea of guilty entered by one fully aware of the direct consequences"
of the plea is voluntary in a constitutional sense "unless induced by threats.,
••r

misrepresentation.. ••ir or perhaps by promise that are by their nature

improper as having no proper relationship to the prosecutor's business."
Id., as 755.

Brady's detriment was he was advised by competent counsel...and

was made aware of the nature if the charge against him. Id., at 756.
Like petitioner in the Bousley case, Bousley v. U.S • <r 532 U.S. 614, 619
(1998), he asserts that he was misinformed as to the true nature of the charge
against him regarding the second degree murder and its elements.

Not only was Carter misinformed as what was required to plea to a second
degree murder, counsel consistently misrepresented the law pre-trial, required
compulsory process to obtain witnesses,, such as his mother. Defense counsel's
performance can serve as the requisite "fair and just reason" for withdrawal

15.

only if [the defendant] can demonstrate both that his attorney's performance
was deficient and that he was prejudiced by it. Sea United States v. McMullen,
36 F3d 135, 137 (8th Cir. 19%)_ To establish deficient performance, "the
defendant must show that counsel's representation fell below an objective
standard of reasonableness." Strickland, 466 U.S. at 687—38. To show prejudice
the defendant must prove "that there is a reasonable probability that, but
for counsel's error,, ha would not have pleaded guilty and would have insisted
on going to trial." McMullen, 86 F3d at 137(internal quotations omitted).

Here( the best record of Carter's claim of his insistence on going to trial
is not only his motion to withdraw his plea, but the hearing on this claim.
See MT, 5/20/16.

On Motion to Withdraw plea hearing, the People objected to any evidentiary
hearing being held. (MT 5/20/16 at 3-4). The defense's position that the
evidentiary hearing was absolutely necessary, because the record was not
adequate as contended by the People that it was. (*5). The Gourt was made
aware that the applicable standard for reviewing claim was Hill v. Lockhart,
and the need to call the attorney witness that the advice complained of was
not provided. (8).

Carter contends that Strickland does not requires certainty that result
would have been different, [only] reasonable probability, meaning probability
icient to undermine confidence in outcome. See Maples v. Oomm'r. Alabama
Dep't of Cbrr., 729 Fed. Appx. 817, 823 (11th Cir. 2018) (unpublished)

On the motion proceeding the requisite transcript necessary to argue the
ineffective assistance claim or withdrawal on the specifics of the claim.
(MT, 13-14).

16.

The Michigan Supreme Court further held that Due Process does not require
that trial courts inform defendants of potential consecutive sentence, but
placed the onus was on the attorney. Holding, "Rather* this advisory respon­
sibility lies primrily v/ith defense counsel, whose effective assistance is
guaranteed to all criminal defendants by the United States and Michigan Consti
-tutions." Warren, 2020 Mich LEXIS 688 *41.

In this matter* Carter was denied due process of law where his counsel
misrepresented the laws, failed to investigate pre-trial, and failed to advise
Carter that plea waived his defenses* or even his theory he wanted to pursue
that the shooting was accidentia!.

Further* Carter* asserts that when he was about to raise a complaint against
his counsel during voir dire* he and counsel on the granted recess argued
about Carter going to trial, and his inadequacies- (MT at 29-30)

Carter was denied due process where the record of these proceedings were
not present on the motion for withdrawal, by a State created impediment.

This Court may hear this certiorari pursuant to Lockhart v. Fretwell, 506
U.S. 364, 366 (1993), for the fundamental unfairness of the proceeding, and
under the aggregate of the deficient performance of counsel pre-trial and
during the plea process and lack of advisement under Strickland.

18.

In conclusion, Carter asserts that he was denied Due Process of Law under
Sixth and Fourteenth Amendment where he was denied the effective assistance
of counsel contrary to the Strickland standard and the numerous acts and
omissions of counsel should be assessed in aggregate to determine if Carter
was prejudiced by counsel.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:_ol[

